<html>
<title> - H.R. 4465, ``ENDANGERED FISH RECOVERY PROGRAMS EXTENSION ACT OF 2017''</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]



 
H.R. 4465, ``ENDANGERED FISH RECOVERY PROGRAMS EXTENSION ACT OF 2017''

=======================================================================

                          LEGISLATIVE HEARING

                               before the

                SUBCOMMITTEE ON WATER, POWER AND OCEANS

                                 of the

                     COMMITTEE ON NATURAL RESOURCES
                     U.S. HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                      Wednesday, December 6, 2017

                               __________

                           Serial No. 115-31

                               __________

       Printed for the use of the Committee on Natural Resources
       
       
       
       
       
       
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]       


       


        Available via the World Wide Web: http://www.govinfo.gov
                                   or
          Committee address: http://naturalresources.house.gov
          
          
          
                            _________ 

                U.S. GOVERNMENT PUBLISHING OFFICE
                   
 27-787 PDF               WASHINGTON : 2018                
          
          
          
      

                     COMMITTEE ON NATURAL RESOURCES

                        ROB BISHOP, UT, Chairman
            RAUL M. GRIJALVA, AZ, Ranking Democratic Member

Don Young, AK                        Grace F. Napolitano, CA
  Chairman Emeritus                  Madeleine Z. Bordallo, GU
Louie Gohmert, TX                    Jim Costa, CA
  Vice Chairman                      Gregorio Kilili Camacho Sablan, 
Doug Lamborn, CO                         CNMI
Robert J. Wittman, VA                Niki Tsongas, MA
Tom McClintock, CA                   Jared Huffman, CA
Stevan Pearce, NM                      Vice Ranking Member
Glenn Thompson, PA                   Alan S. Lowenthal, CA
Paul A. Gosar, AZ                    Donald S. Beyer, Jr., VA
Raul R. Labrador, ID                 Norma J. Torres, CA
Scott R. Tipton, CO                  Ruben Gallego, AZ
Doug LaMalfa, CA                     Colleen Hanabusa, HI
Jeff Denham, CA                      Nanette Diaz Barragan, CA
Paul Cook, CA                        Darren Soto, FL
Bruce Westerman, AR                  A. Donald McEachin, VA
Garret Graves, LA                    Anthony G. Brown, MD
Jody B. Hice, GA                     Wm. Lacy Clay, MO
Aumua Amata Coleman Radewagen, AS    Jimmy Gomez, CA
Darin LaHood, IL
Daniel Webster, FL
Jack Bergman, MI
Liz Cheney, WY
Mike Johnson, LA
Jenniffer Gonzalez-Colon, PR
Greg Gianforte, MT

                      Cody Stewart, Chief of Staff
                      Lisa Pittman, Chief Counsel
                David Watkins, Democratic Staff Director
                                 ------                                

                SUBCOMMITTEE ON WATER, POWER AND OCEANS

                       DOUG LAMBORN, CO, Chairman
              JARED HUFFMAN, CA, Ranking Democratic Member

Robert J. Wittman, VA                Grace F. Napolitano, CA
Tom McClintock, CA                   Jim Costa, CA
Paul A. Gosar, AZ                    Donald S. Beyer, Jr., VA
Doug LaMalfa, CA                     Nanette Diaz Barragan, CA
Jeff Denham, CA                      Madeleine Z. Bordallo, GU
Garret Graves, LA                    Gregorio Kilili Camacho Sablan, 
Jody B. Hice, GA                         CNMI
Daniel Webster, FL                   Jimmy Gomez, CA
  Vice Chairman                      Raul M. Grijalva, AZ, ex officio
Mike Johnson, LA
Greg Gianforte, MT
Rob Bishop, UT, ex officio

                                 ------      
                                 
                                CONTENTS

                              ----------                              
                                                                   Page

Hearing held on Wednesday, December 6, 2017......................     1

Statement of Members:
    Huffman, Hon. Jared, a Representative in Congress from the 
      State of California........................................     4
        Prepared statement of....................................     5
    Lamborn, Hon. Doug, a Representative in Congress from the 
      State of Colorado..........................................     1
        Prepared statement of....................................     3

Statement of Witnesses:
    Colosimo, Andrew, Government and Corporate Affairs Manager, 
      Colorado Springs Utilities, Colorado Springs, Colorado.....    25
        Prepared statement of....................................    27
    Curtis, Hon. John R., a Representative in Congress from the 
      State of Utah..............................................     6
        Prepared statement of....................................     7
    Hague, Jimmy, Senior Water Policy Advisor, The Nature 
      Conservancy, Arlington, Virginia...........................    21
        Prepared statement of....................................    23
    Maddux, Henry, Director, Recovery Programs, Utah Department 
      of Natural Resources, Salt Lake City, Utah.................     9
        Prepared statement of....................................    10

Additional Materials Submitted for the Record:
    List of documents submitted for the record retained in the 
      Committee's official files.................................    33
                                     



 LEGISLATIVE HEARING ON H.R. 4465, TO MAINTAIN ANNUAL BASE FUNDING FOR 
 THE UPPER COLORADO AND SAN JUAN FISH RECOVERY PROGRAMS THROUGH FISCAL 
YEAR 2023, TO REQUIRE A REPORT ON THE IMPLEMENTATION OF THOSE PROGRAMS, 
 AND FOR OTHER PURPOSES, ``ENDANGERED FISH RECOVERY PROGRAMS EXTENSION 
                             ACT OF 2017''

                              ----------                              


                      Wednesday, December 6, 2017

                     U.S. House of Representatives

                Subcommittee on Water, Power and Oceans

                     Committee on Natural Resources

                             Washington, DC

                              ----------                              

    The Subcommittee met, pursuant to call, at 10:00 a.m., in 
room 1324, Longworth House Office Building, Hon. Doug Lamborn 
[Chairman of the Subcommittee] presiding.
    Present: Representatives Lamborn, LaMalfa, Bishop (ex 
officio); Huffman, and Barragan.
    Mr. Lamborn. The Subcommittee on Water, Power and Oceans 
will come to order. The Water, Power and Oceans Subcommittee 
meets today to hear testimony on H.R. 4465, sponsored by 
Representative John Curtis of Utah.
    Under Committee Rule 4(f), any oral opening statements at 
hearings are limited to the Chairman, Ranking Minority Member, 
and the Vice Chair. Therefore, I ask unanimous consent that all 
other Members' opening statements be made part of the hearing 
record, if they are submitted to the Subcommittee Clerk by 5 
p.m. today. Hearing no objection, so ordered.
    We will begin with opening statements, starting with 
myself, for 5 minutes.

    STATEMENT OF THE HON. DOUG LAMBORN, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF COLORADO

    Mr. Lamborn. Today, we will consider H.R. 4465, the 
Endangered Fish Recovery Programs Extension Act of 2017, 
sponsored by our new colleague from Utah, John Curtis, and 
joined by a bipartisan group of co-sponsors from the affected 
states, including myself.
    Authorized in 1956, the Colorado River Storage Project, or 
CRSP, paved the way for the development and utilization of the 
water resources in Colorado, Wyoming, Utah, Arizona, and New 
Mexico. With a total storage capacity of more than 30 million 
acre-feet, and the capability to generate over 5 billion 
megawatt-hours of energy annually, the CRSP is vital to the 
economies of the Upper Basin states.
    Fourteen native fish species, including four listed as 
endangered under the Endangered Species Act, also call the 
Basin home. The threat of water and power restrictions 
resulting from these listings prompted the states to enter into 
cooperative agreements with the Federal Government, tribes, and 
other non-Federal partners, as well, to ensure the continued 
reliability of these projects. These agreements eventually led 
to the creation of the Upper Colorado and San Juan Recovery 
Implementation Programs.
    The 106th Congress enacted legislation to establish Federal 
participation and non-Federal cost share, including the 
authority to use CRSP power revenues, to support these two 
programs. These agreements continue to ensure ESA compliance 
for the more than 2,300 water and power projects in the five-
state region, while also promoting the goals of recovery for 
the four endangered species.
    In 2012, Congress reauthorized the authorization of the 
agreement and the use of these revenues through 2019, but also 
included important reforms to reduce overhead expenses and 
agency travel in order to ensure that taxpayer dollars are 
being devoted to fish recovery, not Federal bureaucrats. This 
reauthorization continues this congressional oversight to 
ensure that the program is transparent and trending toward 
recovery of the species.
    H.R. 4465 extends the use of CRSP power revenues to be used 
through 2023, which also happens to fall in line with the 
recovery deadline for these programs. In addition, the bill 
requires a report to ensure that expenditures and actions are 
helping to recover these species.
    We must not lose fact of the end goal of this program, to 
recover and get these four species de-listed. I am hopeful that 
at the conclusion of this reauthorization, we will have 
accomplished that goal.
    Before I conclude, I would like to welcome Mr. Andy 
Colosimo back to the Committee. Andy is from my home state of 
Colorado. He has more than 30 years of experience at the local, 
state, and Federal level dealing with these issues, and worked 
on the original enacting legislation for the recovery program 
as a staffer in the Senate.
    I would also like to extend a special welcome to our new 
colleague, Congressman John Curtis of Utah. As former mayor of 
Provo, Utah, Congressman Curtis knows firsthand how these 
ground-up, collaborative programs create certainty for water 
and power users, and support local economic activity. Without 
the threat of litigation, through this program, the CRSP has 
achieved a balance between supporting species and local 
communities.
    I want to give a personal introduction to Mr. Curtis, he is 
the newest Member of Congress, as you all may know. And as been 
reported in the press, he has an extensive sock collection. In 
fact, he will go toe to toe with anyone as to who has the best 
socks around. In such a match-up, he might hose you, or you 
might just knock him back on his heels. But whatever the 
outcome, he won't lose his cool. He doesn't swear. The worst 
thing anyone has ever heard him say is ``darn it.''
    With that, I am going to thank all our witnesses for being 
here today. I look forward to hearing your testimony. Although 
the Administration is unable to be here today, I appreciate 
their willingness to submit a statement for the official 
hearing record.

    [The prepared statement of Mr. Lamborn follows:]
Prepared Statement of the Hon. Doug Lamborn, Chairman, Subcommittee on 
                        Water, Power and Oceans
    Today, we will consider H.R. 4465, the ``Endangered Species Fish 
Recovery Program Extension Act of 2017'' sponsored by our new colleague 
from Utah, John Curtis, and joined by a bipartisan group of co-sponsors 
from the affected states, including myself.
    Authorized in 1956, the Colorado River Storage Project (CRSP), 
paved the way for the development and utilization of the water 
resources in Colorado, Wyoming, Utah, Arizona, and New Mexico. With a 
total storage capacity of more than 30 million acre-feet, and the 
capability to generate over 5 billion megawatt-hours of energy 
annually, the CRSP is vital to the economies of the Upper Basin states.
    Fourteen native fish species--including four listed as `endangered' 
under the Endangered Species Act--also call the Basin home. The threat 
of water and power restrictions resulting from these listings prompted 
the states to enter into cooperative agreements with the Federal 
Government, tribes, and other non-Federal partners to ensure the 
continued reliability of these projects. These agreements eventually 
led to the creation of the Upper Colorado and San Juan Recovery 
Implementation Programs.
    The 106th Congress enacted legislation to establish Federal 
participation and non-Federal cost share, including the authority to 
use CRSP power revenues, to support these two programs. These 
agreements continue to ensure ESA compliance for the more than 2,300 
water and power projects in the five-state region, while also promoting 
the goals of recovery for the four endangered fish species.
    In 2012, Congress reauthorized the authorization of the agreement 
and the use of these revenues through 2019, but also included important 
reforms to reduce overhead expenses and agency travel in order to 
ensure that taxpayer dollars are being devoted to fish recovery--not 
Federal bureaucrats. This reauthorization continues this congressional 
oversight to ensure that the program is transparent and trending toward 
recovery of the species.
    H.R. 4465 extends the use of CRSP power revenues to be used through 
2023, which also happens to fall in line with the recovery deadline for 
these programs. In addition, the bill requires a report to ensure that 
expenditures and actions are helping to recover these species.
    We must not lose fact of the end goal of this program: recover and 
get these four species de-listed. I am hopeful that at the conclusion 
of this reauthorization we will have accomplished that goal.
    Before I conclude, I would like to welcome Mr. Andy Colosimo back 
to the Committee. Andy is from my home state of Colorado and has more 
than 30 years of experience at the local, state and Federal level 
dealing with these issues. And he worked on the original enacting 
legislation for this recovery program as a staffer in the Senate.
    I would also like to extend a special welcome to our new colleague, 
Congressman John Curtis of Utah. As former Mayor of Provo, Utah, 
Congressman Curtis knows firsthand how these ground-up, collaborative 
programs create certainty for water and power users and support local 
economic activity. Without the threat of litigation, through this 
program the CRSP has achieved a balance between supporting species and 
local communities.
    I want to thank all of our witnesses for being with us today and I 
look forward to hearing from you all. Due to a conflict with another 
hearing that is happening on the Senate side this morning, the 
Administration is unable to be here today, but we appreciate their 
willingness to submit a statement for the official hearing record.

                                 ______
                                 

    Mr. Lamborn. I now recognize the Ranking Member for 5 
minutes for his statement.

   STATEMENT OF THE HON. JARED HUFFMAN, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Mr. Huffman. Thank you, Mr. Chairman. Welcome and 
congratulations, Congressman Curtis. Do you want to show us 
your socks today?
    Mr. Curtis. I would defer to the Ranking Member and 
Chairman as to whether or not you want me to put my feet up on 
this table.
    Mr. Huffman. Well, it is good to have you, and I am 
delighted to be part of a hearing that is focused on a bill 
that we can all feel good about supporting. What a great way to 
start your career in Congress, helping move forward a strongly 
bipartisan piece of consensus legislation. If only this place 
worked that way all the time, but it is a great way to start.
    And quite a contrast from what we saw in the Subcommittee 
last week where we had another piece of legislative work that 
had been carefully brought along for years. A stakeholder 
consensus involving the Yakima Basin, and unfortunately, it was 
conjoined with a very controversial piece of legislation, and 
we were prevented from moving forward in a bipartisan consensus 
way. Sometimes we get it wrong, sometimes we get it right. I 
applaud you and I applaud this Subcommittee for bringing us 
this stand-alone bill.
    We want to help support recovery of the four endangered 
species in the Upper Colorado and the San Juan Rivers. This is 
a program that brings together water users, environmental 
groups, tribes, local utilities, and the state and Federal 
agencies, that we need to work together to find ways to ensure 
water and power users needs are met in a sustainable way, that 
also accounts for species protection under the ESA. These are 
exactly the kind of partnerships that I strongly believe we 
need to support, and not the more controversial partisan 
attempts.
    Over the past few decades, these recovery programs in the 
Upper Colorado Basin have kept these unique fish alive. That is 
no small feat. I applaud the many partners who are represented 
here today, including our witnesses that work together to make 
sure that more species are not lost to extinction.
    I also want to support and recognize the work of recovery 
programs thus far, while acknowledging that we also need to 
address the underlying cause of native species lost in the 
Colorado River Basin. This is a highly altered river ecosystem, 
obviously, and a dwindling water supply. In addition to the 
important habitat it provides for a wide range of species, this 
river obviously does a lot of work. It provides water for 
nearly 40 million people across seven states, in addition to 
Mexico. It provides irrigation to millions of acres of land, 
and power for millions of people and hundreds of local 
communities. It is a valuable resource to more than 20 tribes, 
and, of course, it supports the outdoor recreation economy 
across the region.
    It is very important, I think, to recognize that the 
Colorado River Basin is experiencing an unprecedented drought 
and has been since the year 2000, the worst in the past 100 
years, some say the worst in 1,000 years, which threatens 
endangered species, the ecosystem, and roughly 1 in 10 
Americans who rely on this watershed.
    We have already seen dramatic changes in this basin as a 
result of the drought. In March 2017, we had some of the 
warmest weather in history, temperatures almost 9 degrees above 
the historic average. This has serious implications for the 
snowpack in the Upper Basin, which supplies 90 percent of the 
water for the already strained system, where more water is 
taken from the reservoirs than is replenished every year. So, 
we have some challenges in the Colorado River Basin, and they 
are reflected in the similar challenges that we face throughout 
the West because of the drier, hotter climate.
    We are going to need to support these kinds of broad 
stakeholder efforts, to come together to make compromises to 
find sustainable policies that balance interests and bring us 
to solutions that we can all support. Today is an important 
step in that direction.
    I am glad to be with everyone. Mr. Chairman, thanks for 
this hearing. I look forward to supporting this bill. Thank 
you.

    [The prepared statement of Mr. Huffman follows:]
     Prepared Statement of the Hon. Jared Huffman, Ranking Member, 
                Subcommittee on Water, Power and Oceans
    Thank you, Mr. Chairman.

    I appreciate that the focus of today's hearing is a bipartisan bill 
that recognizes the importance of stakeholder collaboration and 
balances the environment with water and power needs. It is a stark 
contrast from the Majority's tactics in this Subcommittee last week, 
when we discussed a one-sided bill that attacked environmental laws and 
diminished the years-long efforts that went into the Yakima Basin Plan.
    H.R. 4465 reauthorizes funding for programs to help recover four 
endangered species within the Upper Colorado and San Juan Rivers. These 
programs bring together water users, environmental groups, tribes, 
local utilities, and state and Federal agencies to find ways to ensure 
water and power needs are met in a sustainable way that accounts for 
species protected under the Endangered Species Act. We need exactly 
these types of partnerships, not so-called streamlining, so that the 
significant impacts of power generation and water supply don't lead to 
the extinction of native fish species in the Colorado River.
    Over the last few decades, the recovery programs in the Upper 
Colorado Basin have kept these unique fish alive. It is no small feat, 
and I applaud the many partners, including our witnesses here today, 
who have worked to make sure more species aren't lost to extinction. We 
face many similar challenges in California and I understand the 
significant effort and cooperation that's required from everyone 
involved. These programs in the Upper Colorado River Basin have made 
progress toward addressing some major threats to these endangered fish 
species, including mitigating non-native species and instream flow 
management.
    Although I support the bill and recognize the work of the recovery 
programs thus far, we must also address the underlying causes of native 
species loss in the Colorado River Basin: a highly altered river 
ecosystem and dwindling water supply. In addition to the important 
habitat it provides for a wide range of species, the Colorado River 
Basin supplies water to nearly 40 million people across seven states in 
addition to Mexico. It provides irrigation to millions of acres of land 
and power for millions of people and hundreds of local communities. It 
is also a valuable resource to more than 20 tribes and to the outdoor 
recreation economy across the region.
    In addition, it is especially concerning that the Colorado River 
Basin has been experiencing an unprecedented drought since 2000. It is 
the worst drought in the past 100 years and one of the worst in the 
past 1,000 years, threatening endangered species, the ecosystem, and 
the roughly 1 in 10 Americans who rely on it. We've already seen 
dramatic changes in the Colorado River Basin as a result of this 
drought. In March 2017, the warmest in history, the temperatures were 
almost 9 degrees above the historic average. This has serious 
implications for the snowpack in the Upper Basin, which supplies nearly 
90 percent of the water for the already strained system, where more 
water is taken from the reservoirs than is replenished each year. 
Unfortunately, research shows that we should prepare for a future that 
includes more frequent and extreme droughts, like the current one, as a 
result of climate change.
    A drier, hotter climate in the West will make it more difficult 
than it already is to meet user and environmental water needs in the 
future. With less water, more people, and increasingly threatened 
species, it will be critical to address ways to restore ecosystems and 
modernize water infrastructure, rather than keeping the status quo. In 
addition to this bill, we should focus on water reuse, recycling, 
removing aging and obsolete dams, and other new ways to meet the water 
needs of growing populations while ensuring a healthy environment for 
future generations. If not, our rivers may become nothing more than 
holding tanks and we'll have to keep endangered species on life support 
indefinitely. I don't think anyone here wants to see that happen.
    I am encouraged, albeit surprised, that several of my colleagues 
from the other side of the dais are co-sponsors of this bill. In the 
past, there have been endless claims from the Majority that this kind 
of species specific recovery approach does not work. I'd argue that it 
does, given that these four fish and 99 percent of all listed species 
under the ESA are still around. But it would make it much easier to 
recover species with sufficient funding and without continued attempts 
by Committee Republicans to weaken the Endangered Species Act. If the 
four endangered species addressed in this bill are important enough for 
funding, I hope we can later talk about why the rest of them are too.
    Thank you to the witnesses for being here today, and I look forward 
to hearing from you.

    I yield back.

                                 ______
                                 

    Mr. Lamborn. Thank you. I also look forward to more 
bipartisanship as you agree with us on some of our legislation.
    Mr. Huffman. Is that how bipartisanship works? We 
surrender.
    Mr. Lamborn. We will now move to our first witness panel to 
hear testimony from Mr. Curtis on his bill. As a reminder, you 
are limited to 5 minutes, but your written statement will 
appear in full in the hearing record.
    Mr. Curtis, you are now recognized for 5 minutes.

   STATEMENT OF THE HON. JOHN R. CURTIS, A REPRESENTATIVE IN 
                CONGRESS FROM THE STATE OF UTAH

    Mr. Curtis. Thank you, Chairman Lamborn, and Ranking Member 
Huffman, for not only considering this bill, but for your 
kindness to me as a new Member being here and your hospitality. 
Thank you very much.
    I do celebrate today my 3-week-and-2-day anniversary. And I 
bring that up primarily to emphasize that there is no way that 
I could be here with a bill of this quality without a lot of 
help, and I would like to acknowledge Chairman Bishop and his 
staff for the many years of work that have gone before me, not 
just on this bill, but on the many natural resource issues. 
Thank you for your help in preparing this bill.
    I would also like to acknowledge that this is a bipartisan 
effort, and I am pleased that it is supported by a group of 
nonpartisan Representatives from Colorado, Utah, Wyoming, and 
New Mexico, who have joined me as co-sponsors on this bill, and 
I think that is very important as well.
    I would also like to acknowledge Henry Maddux. Henry is the 
Director of the Recovery Program for the Utah Department of 
Natural Resources. He has traveled to be here with us today, 
and I would like to give him a special shout-out. He will end 
his illustrious career at the end of this year and will be 
retiring. I appreciate his many years of service to the state 
of Utah.
    We all know how important water is to the vitality of any 
community, but especially for rural communities in the dry 
desert climates of the West. This bill is extremely important 
to my district, because these recovery programs ensure that 
people in our rural communities continue to have access to 
critical water resources for everything from irrigation to 
recreation. The bipartisan Endangered Fish Recovery Programs 
Extension Act extends the authorization to use Upper Colorado 
River Basin Fund revenues for annual base funding of fish 
recovery programs on the Upper Colorado River and San Juan 
Rivers.
    These recovery programs for the pikeminnow, humpback chub, 
razorback sucker, and bonytail were last authorized in 2012. 
Interestingly, I learned as I studied this, that the pikeminnow 
is not really a minnow, it is a fish that grows to 6 feet. And, 
Chairman, as you talked about our eventual goal of getting 
these off the endangered species list, imagine for recreation 
enthusiasts, the ability to fish for a 6-foot fish in these 
rivers. It is very exciting.
    My bill would extend the authorization through 2023. I 
think it is worth noting that these programs do not cost 
taxpayers any money, because they are completely funded by fees 
collected from the water users. Additionally, the bill provides 
some oversight and accountability by requiring the Interior 
Secretary to submit a report to Congress in consultation with 
the participants in the recovery implementation programs, 
describing the accomplishments and the cost of these programs.
    I recently had a chance to travel to Moab firsthand to meet 
the residents and local officials and representatives from 
Utah's Division of Natural Resources to learn more about these 
endangered fish species and the recovery programs. During my 
visit, I came to better understand that not only do these 
recovery programs help to protect these threatened and 
endangered fish species, but they also make it possible for 
Utahans and many in surrounding states and people throughout 
the region to have continual access to use these waterways.
    By being proactive about the recovery of threatened fish 
species, we ensure that important water projects can continue 
on the Upper River Colorado and San Juan Rivers.
    To close, this bill is extremely important to the economics 
of many in the rural parts of my congressional district and 
throughout the West, and I hope the Committee will report it 
favorably.
    Thank you very much. I yield my time.

    [The prepared statement of Mr. Curtis follows:]
  Prepared Statement of the Hon. John R. Curtis, a Representative in 
                    Congress from the State of Utah
    Chairman Lamborn, I would like to thank you and Ranking Member 
Huffman for holding this hearing on my bill today. As many of you know, 
I was elected to Congress less than a month ago, and this bill just 
happens to be the first piece of legislation I introduced. That said, I 
would like to thank my good friend and fellow Utahn, Chairman Rob 
Bishop, and his staff for their hard work and assistance on this bill. 
I would also like to thank the bipartisan group of nine Representatives 
from Colorado, Utah, Wyoming, and New Mexico that have joined with me 
as co-sponsors.
    We all know how important water is to the vitality of any 
community--especially for rural communities in the dry desert climates 
of the West. This bill is extremely important to my district, because 
these recovery programs ensure that people in our rural communities 
continue to have access to critical water sources for everything from 
irrigation to recreation.
    The bipartisan Endangered Fish Recovery Programs Extension Act 
extends the authorization to use upper Colorado River Basin Fund 
Revenues for annual base funding of fish recovery programs on the Upper 
Colorado River and San Juan Rivers. These recovery programs for the 
pikeminnow, humpback chub, razorback sucker, and bonytail were last 
reauthorized in 2012 and are set to expire in 2019. My bill would 
extend the authorization through 2023. I think it is worth noting that 
these programs do not cost taxpayers any money, because they are 
completely funded by fees collected from water users.
    Additionally, the bill provides some oversight and accountability 
by requiring the Interior Secretary to submit a report to Congress, in 
consultation with the participants in the recovery implementation 
programs, describing the accomplishments and costs of these programs.
    I recently went down to Moab, Utah to meet with the residents, 
local officials, and representatives from the Utah Division of Natural 
Resources to learn more about these endangered fish species recovery 
programs. During my visit, I came to better understand that not only do 
these recovery programs help to protect these threatened and endangered 
fish species, they also make it possible for Utahns and people 
throughout this region to continue to access and use their waterways. 
By being proactive about the recovery of threatened fish species, we 
ensure that important water projects can continue on in the Upper 
Colorado and San Juan Rivers.
    To close, this bill is extremely important to the economies of many 
of the rural parts of my congressional district and throughout the 
West, and I hope that this Committee will report it favorably.

    Thank you.

                                 ______
                                 

    Mr. Lamborn. You are welcome. Thank you for your testimony. 
You are welcome to join us for the remainder of the hearing, 
but if you have to meet other obligations, we will understand 
and you will be excused.
    I now want to call forward our second panel of witnesses. I 
will introduce them as they are coming forward to take their 
seats. Our first witness is Mr. Henry Maddux, Director of 
Recovery Programs for the Utah Department of Natural Resources 
from Salt Lake City, Utah; our second witness is Mr. Jimmy 
Hague, Senior Water Policy Advisor for The Nature Conservancy 
from Arlington, Virginia; and our final witness is Mr. Andrew 
Colosimo, Government and Corporate Affairs Manager for Colorado 
Springs Utilities from Colorado Springs, Colorado.
    Thank you all for taking the time to be here. Each witness' 
written testimony will appear in full in the hearing record. I 
ask that witnesses keep their oral statements to 5 minutes, as 
outlined in our invitation letter to you, and under Committee 
Rule 4(a). I will explain how the timing lights work. Andy, I 
know you know how these work, because you testified before. 
When you are recognized, press the talk button to activate the 
microphone. Once you begin your testimony, the Clerk will start 
the timer and it will count down from 5 minutes to 0. At 4 
minutes, the yellow light comes on. I would ask that you begin 
to conclude your statement at that time, and to finish when it 
counts down to 0 and the red light comes on.
    Mr. Maddux, you are now recognized for 5 minutes.

 STATEMENT OF HENRY MADDUX, DIRECTOR, RECOVERY PROGRAMS, UTAH 
     DEPARTMENT OF NATURAL RESOURCES, SALT LAKE CITY, UTAH

    Mr. Maddux. Thank you, Chairman Lamborn, Ranking Member 
Huffman, and members of the Subcommittee for the opportunity to 
testify in support of H.R. 4465. I am Henry Maddux. I am 
Director of Recovery Programs for Utah's Department of Natural 
Resources. I also am Utah's Representative on the Upper Basin 
Colorado River Program, and serve as Chair of that Committee.
    H.R. 4465 amends Public Law 106-392 by extending the 
authorization of the use of Colorado River Storage Project, 
also known as CRSP, hydropower revenues through 2023 for annual 
funding of both the Upper Colorado River, Fish Recovery 
Program, and the San Juan River Recovery Implementation 
Program.
    As mentioned by Representative Curtis, a report is also 
required through this amendment from the Secretary of the 
Interior to the Subcommittee by the end of Fiscal Year 2021. 
Public Law 106-392 authorizes Federal cost-sharing for the two 
recovery programs for capital projects and use of CRSP 
hydropower revenues for annual funding. The law recognizes 
substantial cost-sharing by the states, power customers, and 
water users. We also have in-kind contributions by many of the 
other participants of the recovery programs. These non-Federal 
cost-sharing commitments will continue through 2023.
    CRSP hydropower revenues are a critical source of funding 
for the recovery programs. These power revenues fund 
maintenance and operation of many of our capital projects, 
including fish passages, fish screens, bottomland projects, 
hatcheries, research, and monitoring. These science-based 
activities are critical to achieving our dual goals of: Number 
one, recovering the four endangered fish; and Number two, 
continued support of development and use of water resources in 
compliance with state water law and interstate compacts.
    Both the Upper Colorado River and San Juan River fish 
programs were established to eliminate conflicts between water 
use and species recovery for Colorado pikeminnow, razorback 
sucker, humpback chub, and bonytail.
    We saw that collaboration was a better path than 
litigation. This collaboration began in the Upper Colorado 
River Basin in 1988 by a cooperative agreement between the 
Secretary of the Interior; the states of Utah, Colorado, and 
Wyoming; and the Western Area Power Administration. Other full 
members of the program include: CRSP power customers, 
represented by Colorado River Energy Distributors Association; 
water users from the three states; and environmental 
organizations represented by The Nature Conservancy and Western 
Resource Advocates. We also have other Federal members, 
including Bureau of Reclamation, National Park Service, and 
Fish and Wildlife Service.
    The San Juan Program, likewise, was established in 1992 by 
cooperative agreement between the Secretary, the Navajo Nation, 
Ute Mountain Ute, the Southern Ute Tribe, and the Jicarilla 
Apache Nation, along with the other Federal entities. An 
example of the effectiveness of this program can be 
demonstrated in Grand Junction, Colorado, a place commonly 
referred to as the 15-mile reach. Historically, this reach of 
river dried up due to both Federal and non-Federal irrigation 
diversions. It is considered critical habitat for the 
endangered fish, as well as an important spawning area.
    Through collaboration and voluntary contributions, over 1 
million acre-feet of water has now been delivered to that reach 
of river. It no longer goes dry, and supports the recovery of 
these fish. To date, these two recovery programs have provided 
Endangered Species Act compliance for 2,500 projects, many of 
those in my home state of Utah, that support agriculture, 
energy development, recreation, as well as diversion to the 
Wasatch Front, where the majority of our population lives.
    The program has strong support among all the participants. 
I believe I can speak on behalf of the non-Federal program 
participants in requesting the support of the Subcommittee for 
H.R. 4465. I would note that an identical bill has been 
introduced in the Senate.
    Once again, I thank the Chairman, Ranking Member, and 
Subcommittee members, for the opportunity to testify.

    [The prepared statement of Mr. Maddux follows:]
 Prepared Statement of Henry Maddux, Director, Recovery Programs, Utah 
                    Department of Natural Resources
    Thank you Chairman Lamborn, Ranking Member Huffman and members of 
the Subcommittee for the opportunity to testify in support of H.R. 
4465. I am Director, Recovery Programs, Utah Department of Natural 
Resources. I serve as Utah's representative on the Management 
Committee, Upper Colorado River Endangered Species Recovery Program and 
I am chairman of that committee.
    H.R. 4465 amends Public Law 106-392 by extending the authorization 
through Fiscal Year 2023 for use of hydroelectric power revenues from 
the Colorado River Storage Projects (CRSP) for annual funding of the 
Upper Colorado River Endangered Fish Recovery Program and the San Juan 
River Basin Recovery Implementation Program. The authorization extends 
the currently authorized levels of annual funding. A report by the 
Secretary of the Interior is required to be submitted to Congress in 
Fiscal Year 2021 with recommendations for funding beyond Fiscal Year 
2023. Any funding beyond Fiscal Year 2023 requires authorization by 
Congress.
    Public Law 106-392 became law in 2000. The law authorizes Federal 
cost-sharing for the two recovery programs for capital projects and use 
of CRSP power revenues for annual funding. The law recognizes 
substantial cost-sharing by states of Utah, Colorado, Wyoming, and New 
Mexico, power customers, and water users. In-kind contributions are 
also made by other participants in the recovery programs. These non-
Federal cost sharing contributions will continue through 2023. Congress 
has extended the Federal authority both in amount and time with 
amendments to P.L. 106-392 on three other occasions with strong 
bipartisan support. The authorization for expenditures on capital 
projects currently extends through 2023. Capital project expenditures 
are also cost shared.
    CRSP hydropower revenues are a critical source of cost sharing 
funds for the recovery programs. Hydropower revenues fund operation and 
maintenance of capital facilities including fish passages, fish 
screens, hatcheries, bottomland habitat, research, and monitoring. 
These activities are critical to achieving the goals of the recovery 
programs--recovery of four endangered fish species while water 
development and management proceeds in compliance with state water and 
wildlife law, interstate compacts approved by Congress, authorizations 
for Bureau of Reclamation projects approved by Congress, and the 
Endangered Species Act.
    Both the Upper Colorado and San Juan River Basin Recovery Programs 
were established to eliminate potential conflicts among water 
development and management activities and protection and recovery of 
four endangered fish species--Colorado pikeminnow, humpback chub, 
razorback sucker, and bonytail. The species occupy the lower warm water 
reaches of the upper Colorado River Basin.
    The Upper Colorado River Recovery Program was established in 1988 
by cooperative agreement among the Secretary the Interior, the 
governors of Colorado, Utah, and Wyoming, and Western Area Power 
Administration. Other participants include CRSP power customers, water 
users in Colorado, Utah, and Wyoming, and environmental organizations 
represented by The Nature Conservancy and Western Resource Advocates. 
Participating Federal agencies include Bureau of Reclamation, Western 
Area Power Administration, National Park Service, and U.S. Fish and 
Wildlife Service.
    The San Juan River Basin Recovery Implementation Program was 
established in 1992 By cooperative agreement among the Secretary of the 
Interior, the governors of Colorado and New Mexico, the Navajo Nation, 
Southern Ute Tribe, Ute Mountain Ute Tribe, and Jicarilla Apache 
Nation. Other participants include water users in Colorado and New 
Mexico, and environmental organizations represented by The Nature 
Conservancy. Participating Federal agencies include Bureau of 
Reclamation, Bureau of Indian Affairs, Bureau of Land Management, and 
U.S. Fish and Wildlife Service.
    Both programs have the objective of recovering and de-listing the 
endangered fish. Program activities address all causes of the 
endangerment including flow management, habitat development, non-native 
fish control, research and monitoring. Research and monitoring has 
resulted in the programs' recovery actions being driven by sound 
science.
    In establishing these programs, it was agreed that there will be no 
taking of water from any water user or Reclamation contractor. In turn, 
water users, the states, and Reclamation agreed to find ways to provide 
water for endangered fish species consistent with state water law, 
interstate compacts, and Reclamation project authorizations. Water is 
provided for endangered fish through reoperation of Reclamation 
projects, improving efficiency of irrigation projects with saved water 
being made available to endangered fish habitat, coordinated reservoir 
operations to enhance spring peak flows without jeopardizing reservoir 
yields, and participation in the reservoir expansion with storage 
capacity dedicated to endangered fish. These efforts to cooperatively 
and voluntarily provide water for endangered fish would not happen 
without the recovery programs.
    An example of the effectiveness of the cooperative approach to 
providing water is found on the Colorado River near Grand Junction. 
Historically, the 15-mile reach of the river was often dried up due to 
depletions by Federal and non-Federal irrigation projects holding 
senior water rights. This reach of the river is in designated critical 
habitat for the endangered fish. Since 1997, more than 1 million acre-
feet of water has been delivered to this reach to benefit endangered 
fish. There are many other examples of significant voluntary and 
cooperative provision of water to endangered fish throughout the basin. 
The dollar value of this water, which has not been estimated, in my 
opinion very likely exceeds the total cost of the two programs.
    In evaluating impacts of existing and new water projects on the 
endangered fish as required by the Endangered Species Act, U.S. Fish 
and Wildlife Service reviews the actions taken by the recovery programs 
to protect and recover the species to determine if those actions offset 
project impacts. To date, the Service has found that program actions 
both at the impact approximately 2,500 water projects in the Upper 
Colorado and San Juan River Basins, including every Reclamation project 
upstream of Lake Powell. There have been no lawsuits filed regarding 
Endangered Species Act compliance under the recovery programs. 
Furthermore, compliance with the Endangered Species Act has been 
streamlined for Federal agencies, water users, and the Fish and 
Wildlife Service.
    The recovery programs have greatly improved the status of 
endangered fish species. Since the inception of the programs, 
populations of endangered fish have increased in the two river basins. 
The Service will prepare 5-year status reviews of three of the species 
in 2018. The status reviews may lead to down-listing of the species 
from endangered to threatened.
    The programs have strong grassroots support among all participants 
including water users, the states, tribes, power customers, and 
environmental organizations. Many of these organizations have submitted 
letters of support to the Subcommittee for H.R. 4465.
    Due to the success of the programs and strong grassroots support, 
the programs have had the support of five presidential administrations. 
P.L. 106-392 and subsequent amendments have had strong bipartisan 
support in Congress. I believe I can speak on behalf of all the non-
Federal program participants in requesting the support of the 
Subcommittee for H.R. 4465. I would note that an identical bill (S. 
2166) has been introduced by Senator Gardner with bipartisan support.
    Once again, I thank the Chairman and Ranking Member for the 
opportunity to testify. I would be happy to answer any questions 
regarding my testimony.

                                 *****

                               ATTACHMENT
                               
                               
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]                               
                               


    Mr. Lamborn. Thank you. Mr. Hague, you are now recognized 
for 5 minutes.

  STATEMENT OF JIMMY HAGUE, SENIOR WATER POLICY ADVISOR, THE 
            NATURE CONSERVANCY, ARLINGTON, VIRGINIA

    Mr. Hague. Chairman Lamborn, Ranking Member Huffman, and 
members of this Committee, thank you for the opportunity to 
participate in this hearing about two important fish recovery 
programs in the Upper Colorado River Basin.
    My name is Jimmy Hague and I am the Senior Water Policy 
Advisor for the Nature Conservancy. I am here today to express 
the Conservancy's strong support for H.R. 4465, the Endangered 
Fish Recovery Programs Extension Act of 2017. I want to thank 
Representative Curtis for his leadership in introducing this 
legislation, as well as all the bipartisan co-sponsors of the 
bill, representing each of the Upper Basin states of Wyoming, 
Utah, Colorado, and New Mexico. We appreciate their support.
    In addition to this testimony, I am submitting to the 
Committee today a letter from Taylor Hawes, Director of the 
Colorado River Program at The Nature Conservancy, also 
requesting your support for H.R. 4465.
    The Conservancy is a global conservation organization 
dedicated to conserving the lands and waters on which all life 
depends. Working in all 50 states as well as 72 countries, we 
use the collaborative approach that engages local governments, 
communities, the private sector, farmers, ranchers, and other 
landowners. In the Colorado River Basin, this means working 
collaboratively to sustain healthy river ecosystems and the 
people that depend on them.
    The Upper Colorado River Endangered Fish Recovery Program, 
and the San Juan River Basin Recovery Implementation Program, 
are highly successful collaborative conservation partnerships 
involving the Upper Basin states, as well as Indian tribes, 
Federal agencies, water, power, and environmental interests. 
These programs are recovering four species of endangered 
Colorado River fish so that they can each be removed from the 
Federal endangered species list while still allowing water use 
and development to occur in our growing western communities. 
The Nature Conservancy is a proud partner in both programs.
    We have supported the recovery programs for more than 30 
years by providing technical and legal expertise, field project 
support, and private fundraising to match public funds. The 
programs are recovering federally-listed, warm-water native 
fish through improved management of Federal dams, river and 
floodplain habitat restoration, active native fish stocking, 
and the control of non-native fish species, among other 
activities.
    These programs are successful. They are successful because 
all 19 member organizations are fully committed to recovering 
the fish that depend on the Colorado River system. The members 
demonstrate our commitment by sharing the cost of the programs, 
and by engaging fully in the collaborative process, including 
consensus-based problem solving.
    These programs are characterized by a culture of respect, 
science-based decision making, and earnest collaboration toward 
shared objectives. The programs have recovery goals that 
provide objective measurable criteria for down-listing and de-
listing the species, including numeric population goals, and 
the site of recovery activities. These goals allow the programs 
to monitor progress toward achieving recovery, as well as to 
assess the effectiveness of management activities, and to 
adjust recovery efforts through adaptive management.
    It is critical to both species recovery and water 
development that the authority to use Colorado River Storage 
Project hydropower revenues for annual base funding be extended 
through 2023. Without the passage of H.R. 4465, annual base 
funding for the recovery programs, which is cost-shared 
pursuant to ongoing agreements by states, tribes, and water 
users, would be cut by almost 40 percent after next fiscal 
year. A cut of this size would significantly harm our ability 
to recover the species.
    These funds support instream flow identification, 
evaluation and protection, habitat restoration and maintenance, 
management of non-native fish impacts, endangered fish 
propagation and stocking, research, monitoring and data 
management, program management, public information involvement, 
as well as operation and maintenance of millions of dollars of 
capital projects, such as fish screens, fish passage, and 
reservoir improvements.
    The substantial reduction of revenue that would occur 
without extended authorization would halt important recovery 
actions for both programs, and put at risk the substantial 
progress we have made over three decades of collaboration to 
restore healthy populations of these native fish species. It 
would also create uncertainty with respect to ESA compliance 
for millions of agricultural, industrial, and municipal water 
users who rely on steady supplies from the Colorado River and 
its tributaries.
    Because extending the programs' authorization to use these 
hydropower revenues is critical to recovery of the four 
endangered species, The Nature Conservancy strongly urges your 
support for H.R. 4465.
    Thank you, Chairman Lamborn, Ranking Member Huffman, 
members of the Committee, for the opportunity to testimony. I 
look forward to your questions.

    [The prepared statement of Mr. Hague follows:]
Prepared Statement of Jimmy Hague, Senior Water Policy Advisor for The 
                           Nature Conservancy
    Chairman Lamborn, Ranking Member Huffman, and members of the 
Subcommittee, thank you for the opportunity to participate in this 
hearing about two important fish recovery programs in the Upper 
Colorado River Basin. My name is Jimmy Hague, Senior Water Policy 
Advisor at The Nature Conservancy. I am here today to express the 
strong support of The Nature Conservancy for H.R. 4465, the Endangered 
Fish Recovery Programs Extension Act of 2017.
    In addition to this testimony, I am submitting to the Committee a 
letter from Taylor Hawes, director of The Nature Conservancy's Colorado 
River Program, requesting your support for H.R. 4465.
    The Conservancy is a global conservation organization dedicated to 
conserving the lands and waters on which all life depends. Guided by 
science, we create innovative, on-the-ground solutions to the world's 
toughest challenges so that nature and people can thrive together. We 
are tackling climate change, conserving lands, waters and oceans at 
unprecedented scale, providing food and water sustainably and helping 
make cities more sustainable. Working in all 50 states and 72 
countries, we use a collaborative approach that engages local 
communities, governments, the private sector, and other partners, 
including farmers, ranchers, and other landowners. In the Colorado 
River Basin, this means working collaboratively to sustain healthy 
river ecosystems and the people that depend on them.
    The Upper Colorado River Endangered Fish Recovery Program and the 
San Juan River Basin Recovery Implementation Program (the ``Programs'') 
are highly successful collaborative conservation partnerships involving 
the states of New Mexico, Colorado, Utah, and Wyoming, as well as 
Indian tribes, Federal agencies, and water, power, and environmental 
interests. These Programs are recovering four species of endangered 
Colorado River fish so that they can each be removed from the Federal 
endangered species list while still allowing water use and development 
in our growing western communities. The Nature Conservancy is a proud 
partner in both Programs.
    The Nature Conservancy (the Conservancy) is a long-standing member 
of the Upper Colorado River Program's Management Committee and Biology 
Committee and the San Juan River Program's Coordination Committee and 
Biology Committee. (The Conservancy shares representation of 
environmental interests with Western Resource Advocates in the Upper 
Colorado River Program.) We have contributed more than $1.5 million in 
capital funds for habitat restoration, joining the states of New 
Mexico, Colorado, Utah, and Wyoming, four Indian tribes, Federal 
agencies, and water and power interests in sharing the costs of 
recovery and compliance.
    The Programs are successful because all 19 member organizations are 
fully committed to recovering the federally listed, warm-water, native 
fish species that depend on the Colorado River system: the Colorado 
pikeminnow, humpback chub, razorback sucker, and bonytail. The members 
demonstrate our commitment by sharing the costs of the Programs, and by 
engaging fully in the collaborative process, including consensus-based 
problem solving. The Programs are characterized by a culture of 
respect, science-based decision making, and earnest collaboration 
toward shared objectives. The Conservancy has supported the recovery 
Programs for more than 30 years by providing technical (biological, 
ecological, and hydrological) and legal expertise, field project 
support (for example, design and implementation of three phases of 
habitat restoration along the San Juan River), and private fundraising 
to match public funds.
    We are participants in the Programs because they support the 
recovery of endangered, native fish in the Upper Colorado River Basin 
through improved management of Federal dams, river and floodplain 
habitat restoration, active native fish stocking, and the control of 
non-native fish species. The Programs have recovery goals that provide 
objective, measurable criteria for down-listing and de-listing the 
species, including numeric population goals and a set of specific 
recovery activities. These goals allow the Programs to monitor progress 
toward achieving recovery, to assess the effectiveness of management 
actions, and to adjust recovery efforts through adaptive management.
    The collaborative Programs for endangered fish recovery enable 
water development and management to take place in the Upper Basin in 
compliance with the Endangered Species Act (ESA), interstate compacts, 
and state water laws. The Programs also provide ESA compliance for 
continued operation of Federal water and power projects in the Upper 
Basin. Since 1988, the two Programs have provided ESA Section 7 
compliance without litigation for over 2,500 Federal, tribal, state, 
and privately managed water projects across the Upper Colorado River 
Basin depleting more than 3.7 million acre-feet of water per year--
including those projects that supply water to our growing western 
cities.
    It is critical to both species recovery and water development that 
the authority to use Colorado River Storage Project hydropower revenues 
for annual base funding be extended through 2023. Without the passage 
of H.R. 4465, annual base funding for the Recovery Programs--which is 
also cost-shared pursuant to ongoing agreements by states, tribes, and 
water users--would be cut by almost 40 percent starting next year.
    These funds provide for instream flow identification, evaluation, 
and protection; habitat restoration and maintenance; management of non-
native fish impacts; endangered fish propagation and stocking; 
research, monitoring, and data management; public information and 
involvement; program management; and operation and maintenance of 
millions of dollars of capital projects, including fish screens, fish 
passages, and reservoir improvements.
    The current level of annual base funding is approximately $8.2 
million. The substantial reduction of this revenue that would occur 
without extended authorization would halt important recovery actions 
for both Programs. Such a cut would put at risk the substantial 
progress we have made over three decades of collaboration to restore 
healthy populations of these native fish species. It would also create 
uncertainty with respect to ESA compliance for the millions of 
agricultural, industrial, and municipal water users who rely on steady 
supplies from the Colorado River and its tributaries.
    Because extending the Programs' authorization to use these 
hydropower revenues is critical to recovery of the four endangered 
species, the Nature Conservancy strongly urges your support for H.R. 
4465.

    Thank you, Chairman Lamborn, Ranking Member Huffman, and members of 
the Subcommittee for the opportunity to provide this testimony.

                                 *****

                               ATTACHMENT

                            The Nature Conservancy,
                                          Boulder, Colorado

                                                   December 4, 2017

Hon. Doug Lamborn, Chairman,
Hon. Jared Huffman, Ranking Member,
House Committee on Natural Resources,
House Subcommittee on Water, Power and Oceans,
1324 Longworth House Office Building,
Washington, DC 20515.

Re: H.R. 4465, the Endangered Fish Recovery Programs Extension Act of 
        2017

    Dear Chairman Lamborn and Ranking Member Huffman:

    The Nature Conservancy supports the Endangered Fish Recovery 
Programs Extension Act of 2017 (H.R. 4665) because extending the 
authorization to use hydropower revenues through FY 2023 is critically 
important to keeping two vital endangered species recovery programs 
moving forward in the Upper Colorado River basin.
    H.R. 4465 amends P.L. 106-392, the authorizing legislation for the 
Recovery Programs, to provide for continued use of Colorado River 
Storage Project (CRSP) revenue for annual funding of the Upper Colorado 
River Endangered Fish Recovery Program and the San Juan River Basin 
Recovery Implementation Program through 2023 at currently authorized 
levels. Cost sharing for the programs is also provided by the States of 
Colorado, Wyoming, New Mexico, and Utah, water users, and CRSP power 
customers.
    The two Recovery Programs are highly successful collaborative 
conservation partnerships involving the States of New Mexico, Colorado, 
Utah, and Wyoming, as well as Indian tribes, federal agencies, and 
water, power, and environmental interests. These Programs are 
recovering four species of endangered Colorado River fish so that they 
can each be removed from the federal endangered species list while 
still allowing water use and development in our growing Western 
communities to continue in compliance with the federal Endangered 
Species Act (ESA), state law, and interstate compacts. Since 1988, the 
two Programs have provided ESA Section 7 compliance without litigation 
for over 2,500 federal, tribal, state, and privately managed water 
projects across the Upper Colorado River basin depleting more than 3.7 
million acre-feet of water per year--including those projects that 
supply water to our growing Front Range cities.
    Colorado River Storage Project revenues provide critical annual 
funding for the programs for operation and maintenance of facilities to 
recover the species, including fish screens, fish passages, bottomland 
habitat, and hatcheries, research and monitoring, and program 
management. Because extending the Programs' authorization to use these 
hydropower revenues is critical to keeping recovery of the four 
endangered species moving forward, the Nature Conservancy requests your 
support for H.R. 4465.

            Sincerely,

                                              Taylor Hawes,
                                   Colorado River Program Director.

                                 ______
                                 

    Mr. Lamborn. Thank you. Mr. Colosimo, you are now 
recognized for 5 minutes.

STATEMENT OF ANDREW COLOSIMO, GOVERNMENT AND CORPORATE AFFAIRS 
MANAGER, COLORADO SPRINGS UTILITIES, COLORADO SPRINGS, COLORADO

    Mr. Colosimo. Good morning. Thank you, Chairman Lamborn, 
Ranking Member Huffman, Chairman Bishop, and members of the 
House Subcommittee on Water, Power and Oceans, for the 
opportunity to testify in support of H.R. 4465.
    My name is Andrew Colosimo, Government Affairs Manager for 
Colorado Springs Utilities. Colorado Springs Utilities is a 
four-service municipal utility providing electric, natural gas, 
water, and wastewater services to approximately 407,000 citizen 
owners.
    Colorado Springs is not located on a major river, it must 
rely on water delivered from distant watersheds. Currently, 
between 60 and 70 percent of our water supply originates from 
first and subsequent reuse of water obtained from the Colorado 
River headwaters through four transbasin diversions. We, along 
with other Colorado Front Range water providers, including 
Denver and Aurora, serve approximately 80 percent of Colorado's 
population and economy. About 72 percent of this supply comes 
from the Colorado River Basin. As a result, Front Range water 
providers have a large stake in the future of Colorado River. 
Our water diversions from the Colorado River Basin link us to 
the Upper Colorado Recovery Endangered Fish Program.
    Colorado Springs Utilities is also linked to this program 
because we are a preference power customer of the Reclamation's 
Federal CRSP program by virtue of our firm electric service 
contract with Western Area Power Administration. Approximately 
10 percent of our power comes from this cost-based and reliable 
source of electricity.
    Colorado Springs Utilities also delivers Federal hydropower 
allocations to many of our local military installations, 
including Peterson Air Force Base, the Air Force Academy, 
Cheyenne Mountain Air Force Station, and Fort Carson. Ensuring 
their electric reliability and resiliency is of utmost 
importance to Colorado Springs Utilities.
    This program operates in accordance with state water laws, 
tribal laws, and interstate compact. Colorado water users have 
been involved in protecting endangered fish on the Colorado 
River since 1983, when the Colorado Water Congress established 
a special project on endangered species. The initial objective, 
as it is today, was to develop administrative solutions to 
potential conflicts between water development and management 
activities, and protection of endangered species in the 
Colorado River Basin.
    These initial efforts lead to the recovery programs that 
were established through cooperative agreements among the Upper 
Basin states of Colorado, Utah, New Mexico, and Wyoming, and 
the Federal agencies in 1988. We appreciate the support that 
Congress has provided to this program since 2000 when 
legislation, Public Law 106-392, was passed, which authorized a 
$100 million capital improvement program.
    Since passage of Public Law 106-392, CRSP power revenues 
have provided over $67 million to the Upper Colorado Recovery 
Program, and $32 million to the San Juan River Recovery 
Implementation Program. The CRSP power customers, through the 
participation of the Colorado River Energy Distributors 
Association, also continue to support this program.
    Water and power interests recognize that the recovery 
programs are an excellent model of Federal/non-Federal 
collaboration. Continuation of the annual base funding from 
CRSP hydropower revenues at the currently authorized levels is 
essential for the programs to provide continuing ESA 
compliance, and to assist in recovering the endangered fish 
species in the two basins. Water and power customers strongly 
support this legislation, and encourage timely passage of H.R. 
4465, to extend these authorities and obligations contained in 
Public Law 106-392.
    We are grateful for the past support of the Subcommittee, 
which has allowed these nationally recognized endangered 
species recovery programs to accomplish these important 
objectives. Continuing the recovery programs through Fiscal 
Year 2023 will allow our community, along with many others, the 
certainty needed to provide dependable water supply to our 
citizen owners. We are encouraged by some positive progress 
toward down- and de-listing these species, and look forward to 
continuing to work with the Federal Government, the states, and 
other partner agencies on program objectives. Thank you.

    [The prepared statement of Mr. Colosimo follows:]
  Prepared Statement of Andrew J. Colosimo, Colorado Springs Utilities
    Thank you Chairman Lamborn, Ranking Member Huffman, and members of 
the House Subcommittee on Water, Power and Oceans for the opportunity 
to testify in support of H.R. 4465 the ``Endangered Fish Recovery 
Programs Extension Act of 2017.'' I would also like to thank 
Representative Curtis for introducing this important piece of 
legislation.
    My name is Andrew Colosimo, the Government Affairs Manager for 
Colorado Springs Utilities. As a community-owned, four service 
municipal utility, our focus is providing safe, reliable, 
competitively-priced electric, natural gas, water and wastewater 
services to our citizen owners and customers.
    The Colorado Springs Utilities water system serves over 470,000 
people across a 200-square mile service area. The water system includes 
25 reservoirs, 38 storage tanks, 6 water treatment facilities, and over 
2,000 miles of water mains. Source water is diverted from over 100 
miles outside the city.
    Colorado Springs is not located on a major river, it must rely on 
water delivered from distant watersheds. Currently, between 60 and 70 
percent of the Utilities' water supply originates from the first use 
and subsequent reuse of water obtained from Colorado River headwaters 
through four transbasin diversions. These supplies are transported into 
the Arkansas River Basin and delivered to storage and treatment 
facilities via four raw water pipeline systems.
    We, along with other Colorado Front Range water providers including 
Denver and Aurora, serve about 80 percent of Colorado's population and 
economy. About 72 percent of this supply comes from the Colorado River 
Basin. As a result, Front Range water providers have a large stake in 
the future of the Colorado River. Our water diversions from the 
Colorado River Basin link us to the Upper Colorado Endangered Fish 
Recovery Program.
    Colorado Springs Utilities is also linked to this program because 
we are a preference power customer of the Reclamation's Federal 
Colorado River Storage Project (CRSP) by virtue of our firm electric 
service contract with the Western Area Power Administration. 
Approximately 10 percent of our power comes from this cost-based and 
reliable source of energy. The remainder of our power comes from local 
generation including coal, natural gas, local hydropower generation and 
renewable energy sources. Colorado Springs Utilities delivers Federal 
hydropower allocations to many of our local military installations 
including Peterson Air Force Base, the Air Force Academy, Cheyenne 
Mountain Air Force Station and Fort Carson. Ensuring electric 
reliability and resiliency for our military customers is of utmost 
importance to Colorado Springs Utilities.
    The Recovery Programs are a proven Federal/non-Federal 
collaborative program that provide Endangered Species Act (ESA) 
compliance for over 2,320 water projects that withdraw about 3.7 
million acre-feet annually, including those belonging to Colorado 
Springs. The goals of the programs are to recover four endangered fish 
species--the humpback chub, razorback sucker, bonytail chub and the 
Colorado pikeminnow--while continuing operations and development of 
water projects in the Upper Colorado River and San Juan River Basins, 
and operation of the Flaming Gorge Dam and Aspinall Unit facilities of 
the CRSP.
    The programs operate in accordance with state water laws, tribal 
laws, and interstate compacts. There has been no taking of water from 
any water user or Reclamation contractor. The programs allow the 
Federal Government to fulfill its Indian trust responsibilities in 
compliance with the Endangered Species Act. It is also important to 
note that no lawsuits have been filed on ESA compliance for any water 
project under the programs.
    Colorado water users have been involved in protecting endangered 
fish on the Colorado River since 1983 when the Colorado Water Congress 
established the Special Project on Endangered Species. The initial 
objective was to develop administrative solutions to potential 
conflicts between water development/management activities and 
protection of endangered species in the Colorado River Basins.
    These initial efforts led to the Recovery Programs that were 
established through Cooperative Agreements among the Upper Basin states 
of Colorado, Utah, New Mexico, and Wyoming and Federal agencies in 1988 
for an initial 15-year period to recover four species of endangered 
fish in the Colorado and San Juan River Basins. In August 2009, the 
Cooperative Agreements were extended through 2023. The Colorado Water 
Congress continues to support this program today.
    We appreciate the support that Congress has provided to this 
program since 2000 when legislation (P.L. 106-392) was passed which 
authorized a $100 million capital improvement program. The legislation 
required ``matching funds'' for the capital program so that, in the 
event state funding for the program ceased, so too would power revenue 
funding. CRSP power revenues funded $17 million of the Program capital 
features.
    The 2000 law also authorized the use of CRSP power revenue for 
``base funding'' of activities including operation and maintenance of 
capital features, and recovery actions other than capital projects, 
including monitoring and research, and program management.
    Since passage of P.L. 106-392, CRSP power revenues have provided 
over $67 million to the Upper Colorado Recovery Implementation Program 
and $32 million to the San Juan River Recovery Implementation Program. 
The CRSP power customers through the participation of the Colorado 
River Energy Distributors Association (CREDA) also continue to support 
this program.
    Water and power interests recognize that the Recovery Programs are 
an excellent model of Federal/non-Federal collaboration. Continuation 
of annual base funding from CRSP hydroelectric power revenues at 
currently authorized levels is essential for the programs to provide 
continuing ESA compliance and to assist in recovering the endangered 
fish species in the two basins.
    Water and power customers strongly support this legislation and 
encourage timely passage of H.R. 4465 that will extend authorities and 
obligations contained in Public Law 106-392. We are grateful for the 
past support of the Subcommittee which has allowed these nationally-
recognized endangered species recovery programs to accomplish their 
important objectives.
    Continuing the Recovery Programs through Fiscal Year 2023 will 
allow our community along with many others the certainty needed to 
provide dependable water supply to our citizen owners. We are 
encouraged by some positive progress toward down- and de-listing 
species and look forward to continuing to work with the Federal 
Government, the states, and other partner agencies on Program 
objectives.

                                 ______
                                 

    Mr. Lamborn. Thank you. We will now begin questions for 
witnesses. To allow all of our Members to participate, and to 
ensure that we can hear from all of our witnesses today, under 
Committee Rule 3(d), Members are limited to 5 minutes for their 
questions. I will save my questions for the end.
    At this point, we will recognize Representative LaMalfa of 
California.
    Mr. LaMalfa. Thank you, Mr. Chairman. The bill being 
discussed today, obviously, will have great impact on the 
supply and hydropower. The issues being talked about on the 
Colorado River with this program are very similar to what we 
face in Northern California with the Sacramento River Basin, 
with the program there known as the Sacramento Valley Salmon 
Recovery Program, which is an agreement between Federal, state 
and local stakeholders. A lot of good work has been done, 
hundreds of millions of dollars have been spent on fish 
screens, water efficiency, habitat restoration, things that 
have been done with a good bipartisan spirit, and a lot of 
cooperation. But for quite a few years, not all the input from 
the stakeholders, particularly the water users, has been as 
strong as it should be. So, I am hoping from this legislation 
we can take some lessons from that and apply it at home in 
California.
    Mr. Colosimo?
    Mr. Colosimo. Colosimo.
    Mr. LaMalfa. I should know better as an Italian. Colosimo. 
What do you see for the fish that are being listed under ESA, 
the prospects for being de-listed, how soon, how simple, what 
needs to happen in order to get to a de-listing?
    Mr. Colosimo. Congressman LaMalfa, thank you for the 
opportunity to talk about this program. I think we are on track 
toward down- and de-listing some of these fish, and really are 
working closely with the Federal agencies to come out with some 
additional analysis on their progress. Recovering these species 
is difficult and it is time-consuming, and we would all like to 
see things done more quickly.
    Mr. LaMalfa. Are there structural issues within the ESA 
that make it more challenging than maybe it needs to be?
    Mr. Colosimo. I believe that there are certainly 
opportunities that the Endangered Species Act could be 
streamlined to make some of these decisions more quickly. But I 
think in the case of this program, I think we are on track.
    Mr. Maddux may be able to provide a little more specificity 
on exact timing and recovery issues. But I believe that we are 
on track to making significant progress toward down- and de-
listing these species in the next few years.
    Mr. LaMalfa. So, you are feeling fairly optimistic about 
that timeline?
    Mr. Colosimo. Yes, sir.
    Mr. LaMalfa. Mr. Maddux, I will throw that right back to 
you.
    Mr. Maddux. Thank you for the question. Currently, the U.S. 
Fish and Wildlife Service is working on species status 
assessments for three of the species: the Colorado pikeminnow, 
razorback sucker, and humpback chub. That is the first step in 
the process of evaluating whether they are ready to be down-
listed. Those evaluations will be completed in 2018.
    The humpback chub is the first one, it is already at the 
level now where it is being discussed in senior management, 
official wildlife, between the three regions: California 
region; the Southwest, basically, Arizona and New Mexico; and 
the Region 6 that covers the Upper Basin states. So, that one 
we are pretty optimistic about, and we are hoping that by the 
end of 2018 we will have made decisions for down-listing three 
of the four.
    Mr. LaMalfa. What is your experience on this being a 
voluntary agreement as opposed to being imposed?
    Mr. Maddux. An interesting fact. Like I said, the 15-mile 
reach is an example. But each year as snow-melt approaches, all 
the private and Federal reservoirs in Colorado begin a dialogue 
on how to coordinate their releases to benefit those fish, so 
that when snow-melts come and they are filling their 
reservoirs, they coordinate their releases to provide what 
looks similar to the historic hydrograph that occurred when 
those fish evolved. And that is all done voluntarily, and 
occurs on an annual basis. Not all the time are they able to 
achieve a giant peak, but many times they can, and we have seen 
great benefits from that. We have private irrigation companies 
that are allowing us to put structures in place, where all the 
saved water remains in the river to benefit the fish.
    I think as people see and begin to trust and know that 
their interests are also looked at, the amount of work they do 
voluntarily has greatly increased.
    Mr. LaMalfa. Briefly on sound science, you used that 
terminology a bit ago. How important is that to getting to a 
good, well-rounded outcome?
    Mr. Maddux. When we started working on these fish, we knew 
very little. In fact, in some of our stocking efforts, we 
learned we were putting those fish in the wrong areas. But as 
we have learned, we have adapted. A great example are the 
releases out of Flaming Gorge Dam. We have a huge amount of 
flow that comes naturally down the Yampa River out of Colorado. 
We would match the peak of the Yampa with the Green River from 
Flaming Gorge, thinking that achieving a high peak and flooding 
those bottomlands was best for the fish. Nothing was happening.
    And what we learned, through science, is that we needed to 
time it when the razorback sucker eggs were hatching on the 
river. So, now, that peak from Flaming George is regulated to 
match when the fish are actually coming off the spawning bars. 
And now we are seeing, this last year, over 2,000 fish out of 
just one of those bottomlands was released back.
    Mr. LaMalfa. It makes sense. I better yield my overtime 
back. Thank you, sir.
    Mr. Lamborn. Thank you. I would now recognize the Ranking 
Member for any questions he might have.
    Mr. Huffman. Thanks, Mr. Chairman. I really don't have too 
many questions. I am just very favorably impressed with the way 
all the stakeholders have come together and stuck with it over 
these many years, and the adaptive management that you 
described sounds like a great feature of this program.
    So, unless you wanted to tell us a little more about the 
hydrograph and how you have timed releases to produce good 
results for fish, I am content and ready to support this bill. 
I guess I do have one question of any of you that are 
fisherman. Have any of you caught this pikeminnow?
    Mr. Maddux. I have caught the humpback chub.
    Mr. Huffman. Not all of our pikeminnow are valued sport 
fish in California. Sometimes we want to catch them and throw 
them off on the shore and wish that they would go away. But 
they fight for a while and then they just sort of roll over and 
you bring them in, and they are not great fighters. I just 
wondered if anybody had caught these Colorado River pikeminnow, 
and if they were a more challenging sport fish to catch?
    Mr. Maddux. I might add that the state of Utah is actually 
working with the Fish and Wildlife Service. We are going to try 
to create a sport fishery on one of our reservoirs for Colorado 
pikeminnow. Can you imagine people setting a new state record 
every year, and the excitement that that will generate.
    Mr. Huffman. And jobs, because fisheries do create jobs and 
a lot of economic activities, and it is important that we 
remember that. Thanks for all your good work.
    Mr. Lamborn. I do have a few follow-up questions. Mr. 
Colosimo and Mr. Maddux, we have talked a little bit about 
fisheries or hatcheries. What role do these play in recovering 
endangered species on the Upper Colorado and San Juan River 
Basins?
    Mr. Maddux. Thank you, Chairman Lamborn. When we first 
started these programs, there were about 300 razorbacks left in 
the wild in the Upper Basin, and they were dwindling every 
year. There were no bonytail in the Upper Basin. Through 
hatcheries, we have been able to re-establish razorback suckers 
and we have reached numbers now to where they are spawning, 
reproducing, their young are surviving. Fishery crews are out 
on the river and they are catching so many it is getting in the 
way of some of their other work. So, that is a success for 
razorback sucker.
    We now changed those resources to bonytail, and I think we 
are finally starting to achieve the levels of bonytail in the 
river where we are starting to see a biological response. So, 
those hatcheries have been critical to our success.
    I should note that Navajo Nation and others have provided 
some of their own land to raise these fish for reintroduction 
on the San Juan and in the Green and Colorado.
    Mr. Lamborn. Mr. Colosimo?
    Mr. Colosimo. Mr. Chairman, I don't have anything else to 
add to Mr. Maddux's.
    Mr. Lamborn. Are the fish that are released into the wild 
genetically identical to those that are in the wild?
    Mr. Maddux. Yes. We have genetic management plans for all 
these species where the crosses, the male, the female, are 
controlled on who is mating, who is producing those young, to 
basically get the best genetic mix we can at the time of 
release.
    Mr. Lamborn. I have always thought that it was a good idea 
to use hatcheries. I have heard occasionally some criticism 
that these fish are not the same as those that are in the wild, 
so they don't want to use hatcheries. My thought is if we are 
really after the species being brought back and revived, we 
should embrace hatcheries. And to not use them would be--the 
only alternative is just to tie up a lot more territory, which 
is barred from any kind of development or use. So, to me, 
hatcheries are important for this purpose. Any comments?
    Mr. Maddux. Personally, I believe that two of our four 
species would be extinct in the Upper Colorado and San Juan 
Rivers if it were not for hatcheries. We were starting at such 
low numbers that without the support of hatchery-produced fish, 
those fish would be gone today.
    Mr. Lamborn. All right. Thank you for being here and for 
your testimony. I now recognize Representative Barragan.
    Ms. Barragan. I don't have any questions.
    Mr. Lamborn. If there are any last questions, we will 
entertain them, otherwise we are going to wrap up. Thank you 
for being here. Under Committee Rule 3(o), members of the 
Committee might submit questions to the Clerk within 3 business 
days following this hearing, and the hearing record will be 
open for 10 business days for responses. If you get any of 
those questions, please answer them.
    Mr. LaMalfa. Mr. Chairman, would you mind if I threw out 
one more?
    Mr. Lamborn. Go ahead, we have not dropped the gavel yet. 
With everyone's unanimous consent, go ahead.
    Mr. Huffman. Through the grace of the Ranking Member.
    Mr. LaMalfa. All right. Very graceful. Thank you.
    Mr. Lamborn. The bipartisan grace.
    Mr. LaMalfa. All right. Since you threw it open, I thought 
I had to do my 5 minutes in 6 minutes earlier, so I appreciate 
that. I will come back to Mr. Maddux--I chair the Subcommittee 
on Indian Affairs, so I wondered what major concerns you may 
have seen with the various tribes involved in the system on the 
San Juan River there? How are those efforts engaged and ensured 
for their concerns?
    Mr. Maddux. As I said, the four tribes are active members. 
They are represented at both the administration level and the 
biology level on the committees. They all have water projects 
that rely on these programs for their Endangered Species Act 
compliance. They have all stepped up in doing voluntary efforts 
to help us achieve recovery. They support us. They come back 
each year, as we come back to brief Members of Congress on the 
program and our success. They are vital--they are basically the 
backbone of the San Juan River Program.
    Mr. LaMalfa. Thank you. That is really good to hear on the 
voluntary efforts that have been mentioned here a couple of 
times in Committee. I appreciate that. And, Mr. Chairman, I 
appreciate the extra indulgence, and Mr. Ranking Member, thank 
you. I will yield back.
    Mr. Lamborn. I would like to ask another question and then 
we will keep this open for a second round. That is great 
bipartisan cooperation here.
    Mr. Colosimo, the lack of lawsuits and certainty associated 
with the water and power operations in the Basin is a great 
success. We must not lose sight, however, of the goals of what 
the programs seek to achieve, which is the eventual de-listing 
of the four ESA-listed fish species.
    Mr. Maddux, I believe, addressed this earlier about the 
possible timeline for eventual de-listing of these four 
species. Is there anything that you would like to say about the 
eventual de-listing?
    Mr. Colosimo. Chairman Lamborn, thank you for the question. 
I think that the progress that we are making is encouraging. I 
think we need to remain vigilant and continue to fund these 
programs. Without these programs, if we aren't successful, 
there is an impact, and it is going to impact our water supply 
and electricity supply in the West. I think that is why we are 
all at the table and are going to remain at the table to try to 
recover these endangered fish.
    Mr. Lamborn. How big of a percentage of the budget from 
WAPA are these programs? And is it all WAPA?
    Mr. Colosimo. I'm not sure that I understand.
    Mr. Lamborn. Mr. Maddux?
    Mr. Maddux. On our annual base funding, power revenues 
account for about 75 percent of our funding.
    Mr. Lamborn. OK.
    Mr. Maddux. States contribute cash each year, as well as 
other in-kind, and other partners also contribute.
    Mr. Lamborn. Federal dollars?
    Mr. Maddux. Fish and Wildlife contributes close to $2 
million annually toward the program.
    Mr. Lamborn. All right. That helps. Thank you. If there are 
no further questions, we are going to go ahead and wrap up. You 
heard what I said about being open to written questions that 
might be submitted to you. If there is no further business, 
without objection, the Subcommittee stands adjourned.

    [Whereupon, at 10:50 a.m., the Subcommittee was adjourned.]

[LIST OF DOCUMENTS SUBMITTED FOR THE RECORD RETAINED IN THE COMMITTEE'S 
                            OFFICIAL FILES]

Letters Submitted in Support of H.R. 4465

    --Letter addressed to Chairman Lamborn and Ranking Member 
            Huffman from the Colorado Water Conservation Board, 
            dated December 4, 2017.

    --Letter addressed to Chairman Lamborn and Ranking Member 
            Huffman from the Grand Valley Water Users 
            Association, date not specified.

    --Letter addressed to Chairman Lamborn and Ranking Member 
            Huffman from the Public Service Company of New 
            Mexico, dated December 1, 2017.

    --Letter addressed to Chairman Lamborn and Ranking Member 
            Huffman from the Southeastern Colorado Water 
            Conservancy District, dated November 30, 2017.

    --Letter addressed to Chairman Lamborn and Ranking Member 
            Huffman from the Central Utah Water Conservancy 
            District, date not specified.

    --Letter addressed to Chairman Lamborn and Ranking Member 
            Huffman from the Colorado River District, dated 
            December 4, 2017.

    --Letter addressed to Chairman Lamborn and Ranking Member 
            Huffman from Colorado Springs Utilities, dated 
            November 30, 2017.

    --Letter addressed to Chairman Lamborn and Ranking Member 
            Huffman from the Colorado Water Congress, date not 
            specified.

    --Letter addressed to Chairman Lamborn and Ranking Member 
            Huffman from the Colorado River Energy Distributors 
            Association, dated December 4, 2017.

    --Letter addressed to Chairman Lamborn and Ranking Member 
            Huffman from Denver Water, date not specified.

    --Letter addressed to Chairman Lamborn and Ranking Member 
            Huffman from Governor Mead of Wyoming, dated 
            December 7, 2017.

    --Letter addressed to Chairman Lamborn and Ranking Member 
            Huffman from the Navajo Nation, dated December 1, 
            2017.

    --Letter addressed to Chairman Lamborn and Ranking Member 
            Huffman from the National Water Resources 
            Association, dated December 1, 2017.

    --Letter addressed to Chairman Lamborn and Ranking Member 
            Huffman from the New Mexico Interstate Stream 
            Commission, dated December 4, 2017.

    --Letter addressed to Chairman Lamborn and Ranking Member 
            Huffman from the Orchard Mesa Irrigation District, 
            date not specified.

    --Letter addressed to Chairman Lamborn and Ranking Member 
            Huffman from the San Juan Water Commission, dated 
            November 30, 2017.

    --Letter addressed to Chairman Lamborn and Ranking Member 
            Huffman from the Southern Ute Indian Tribe, dated 
            November 29, 2017.

    --Letter addressed to Chairman Lamborn and Ranking Member 
            Huffman from the Northern Colorado Water 
            Conservancy District, date not specified.

    --Letter addressed to Chairman Lamborn and Ranking Member 
            Huffman from Tri-County Water Conservancy District, 
            date not specified.

    --Letter addressed to Chairman Lamborn and Ranking Member 
            Huffman from the Southwestern Water Conservation 
            District, dated December 1, 2017.

    --Letter addressed to Chairman Lamborn and Ranking Member 
            Huffman from Tri-State Generation and Transmission 
            Association, Inc., dated December 18, 2017.

    --Letter addressed to Chairman Lamborn and Ranking Member 
            Huffman from the Upper Colorado River Commission, 
            dated December 1, 2017.

                                 <all>
</pre></body></html>
